Case No.

THE SUPREME COURT
OF THE UNITED
STATES
Jean Coulter, Petitioner
v.
Gerri Volchko Paulisick
and
Joseph R. Paulisick, Respondents

On Petition for Certiorari
to the United States Court of Appeals
for the Third Circuit

Petition for Writ of Certiorari
Jean Coulter, Petitioner
620 Butler Crossing #3
PMB 172
Butler, Pennsylvania 16001
412-616-9505
jeanecoulter@yahoo.com

RECEIVED
OCT n 2019
OFFICE OF THE CLERK
.SUPREME COURT u s

In 2015, Coulter filed three (3) Civil Cases in
the federal courts - all of them were filed exclusively
on the basis of the federal courts' Diversity
Jurisdiction.
The first of these cases, Coulter v. Lindsay,
(21a.) was Dismissed With Prejudice as a Sanction a decision which was upheld by the Third Circuit.
Coulter filed the second case, the Instant
Matter, approximately four (4) months later (9a.),
and the last case, just a week after the second one
was filed. (3a.)
Prior to the District Court's determination of
Coulter's domicile in the Instant Matter (but after
the Third Circuit upheld the Dismissal With
Prejudice of the first case filed under Diversity
Jurisdiction), the final case was Dismissed Without
Prejudice (for lack of Diversity Jurisdiction) (14a.) - a
decision produced by the same jurist who Dismissed
the first case (Lindsay) "With Prejudice" less than
five (5) months earlier. (22a.)
Questions Presented for Review
i&l
1.
Has the Third Circuit improperly determined
that domicile of Plaintiff can be based exclusively on
the determination of domicile in a subsequently filed
case - conflicting with decisions of other Circuits?
2.
Has the Third Circuit so far departed from
accepted procedures to require This Court to exercise
the court's supervisory powers - as the Third Circuit
has permitted Dismissal of both the Instant Matter
(and the subsequently filed case) as the result of
undue deference to clearly improper decisions by
obviously biased jurists from the district court?
Was Due Process denied when domicile was
3.
decided (by a highly biased jurist) without notice?

i.

(b)

________ Parties in the Court Below
Petitioner
Jean Coulter
Respondents Gerri Volchko Paulisick
and Joseph R. Paulisick

Table of Contents
(c)
a. Questions Presented for Review
b. Parties in the Court Below
c. Table of Cited Authorities
Table of Contents of the Appendix
d. Reports of the Opinions and Orders
e. Basis for Jurisdiction in this Court
f.
Constitutional Provisions, Statutes
and Regulations
g. Concise Statement of the Case
District Court's Subject Matter Jurisdiction
Pertinent Factual History
Procedural History
h. Argument
i.
Conclusion

1.

u.
in.
iv.

1.
1.
1.
4.
4.
4.
5.
10.
14.

Table of Cited Authorities
Statutes
18 U.S. Code § 4
18 U.S. Code § 241
18 U.S. Code § 242
28 USC § 1254
28 U.S. Code § 1332
U.S.C. § 1653
U. S. Constitution * Amendment V
23 Pa. C.S.A. § 2910
23 Pa. C.S.A. § 2915
23 Pa. C.S.A. § 2931

u.

2.
2.
3.
1.
2., 4.
13.
1.
3.
3.
4.

Case Law
America's Best Inns v. Best Inns of Abilene,
L.P., 980 F. 2d 1072, 7th Circ. (1992)
Carlsberg Res. Corp, 554 F. 2d at 1256
Freeman v. Northwest Acceptance Corp.
754 F. 2d 553 - 5th Circ. 1985
Gilbert v. David, 235 US 561, 35 S. Ct. 164,
59 L.Ed. 360 - Supreme Court 1915
Grupo Dataflux v. Atlas Global Group. LP,
541 U.S. 567, 124 S. Ct. 1920, 158 L. Ed.
2d 866 - Supreme Court 2004
Rowland v. Patterson, 852 F. 2d 108 4th Circ.
1998
Topp v. CompAir Inc.,814 F. 2d 830, 832. n.l.
(1st Circ. 1987)
United States v. Southern California Edison
Co., 300 F. Supp. 2d 964, 972 (ED Cal. 2004)
Zambelli Fireworks Mfg. Co., Inc. v. Wood,
592 F. 3d 412 (2010)

12.
12.
13.
13.
11.

13.
13.
11.
12.

Table of Contents of the Annendix
la.
1. Order Denying Rehearing En Banc
2a.
2. Third Circuit Opinion filed - June 28, 2019
8a.
3. Memorandum Opinion in 2:l5-cv-00937
14a.
4. Motion for Recusal
21a.
5. Docket for Coulter v. Lindsay
6. Official Complaint of Misconduct by Judge 25a.
Bissoon (erroneously sent to Judge Conti)

in.

M

Reports of opinions and orders
All of the decisions in this matter are
designated as non-precedential.
The Dismissal Without Prejudice in the
District Court (for lack of subject matter jurisdiction)
was docketed on November 30, 2018 (14a.) in the
Western District of Pennsylvania at 2:i5'cv937,
Coulter's Motion to Amend the Findings was filed on
December 28, 2018 and Denied on January 4, 2019.
The appeal of the dismissal for Lack of
Subject-Matter Jurisdiction, was filed in the Third
Circuit Case at Case 19*1300. (la.)

(el

Basis for Jurisdiction in this Court
(i)
The Order Affirming the Dismissal by
the District Court, which is sought to be reviewed,
was entered on June 28, 2019. (2a.)
(ii)
The date of the order denying rehearing,
was filed on July 23, 2019. (la.)
(iv) Jurisdiction in this Honorable Court, is
pursuant to 28 USC $ 1254 '•
"Cases in the courts of appeals may be
reviewed by the Supreme Court by the
following methods:
By writ of certiorari granted upon the
(1)
petition of any party to any civil or criminal
case, before or after rendition of judgment or
decree! ..."

(0

Constitutional Provisions. Statutes
and Regulations
U. S. Constitution - Amendment V
"No person shall be held to answer for a
capital, or otherwise infamous crime, unless on a
presentment or indictment of a grand jury, except in
1.

cases arising in the land or naval forces, or in the
militia, when in actual service in time of war or
public danger; nor shall any person be subject for the
same offense to be twice put in jeopardy of life or
limb; nor shall be compelled in any criminal case to
be a witness against himself, nor be deprived of life,
liberty, or property, without due process of law; nor
shall private property be taken for public use,
without just compensation."
28 U.S. Code § 1332 • Diversity of citizenship;
amount in controversy; costs
"(a) The district courts shall have original
jurisdiction of all civil actions where the matter in
controversy exceeds the sum or value of $75,000,
exclusive of interest and costs, and is between—
citizens of different States; ..."
(1)
18 U.S. Code § 4 • Misnrision of felony
"Whoever, having knowledge of the actual
commission of a felony cognizable by a court of the
United States, conceals and does not as soon as
possible make known the same to some judge or
other person in civil or military authority under the
United States, shall be fined under this title or
imprisoned not more than three years, or both."
18 U.S. Code § 241 - Conspiracy against rights
"If two or more persons conspire to injure,
oppress, threaten, or intimidate any person in any
State, Territory, Commonwealth, Possession, or
District in the free exercise or enjoyment of any right
or privilege secured to him by the Constitution or
laws of the United States, or because of his having so
exercised the same; or
2.

They shall be fined under this title or
imprisoned not more than ten years, or both;..."
18 U.S. Code § 242 - Deprivation of rights
under color of law
"Whoever, under color of any law, statute,
ordinance, regulation, or custom, willfully subjects
any person in any State, Territory, Commonwealth,
Possession, or District to the deprivation of any
rights, privileges, or immunities secured or protected
by the Constitution or laws of the United States, ...
shall be fined under this title or imprisoned not more
than one year, or both; ..."
23 Pa. C.S.A. S 2910.
Penalty for unauthorized disclosure.
Any officer or employee of the court, other
than a judge thereof, ... who willfully discloses
impounded or otherwise confidential information ...
other than as expressly authorized and provided in
this chapter, commits a misdemeanor of the third
degree.
23 Pa. C.S.A. § 2915. Court and Agency Records.
...(b) Who may access court or agency records. - Only the following are authorized to access court or
agency records for the purpose of releasing
nonidentifying or identifying information under this
chapter :
(1) The court which finalized the adoption.
(2) The agency that coordinated the adoption.
(3) A successor agency authorized by the court
which finalized the adoption.
3.

23 Pa. C.S.A. $ 2931. Access to information.
Who may access information. - - The following
(a)
individuals may file a written request for ...
information ... with the court which finalized the
adoption the agency which coordinated the adoption
or a successor agency ..."
Concise Statement of the Case
District Court's Subject Matter Jurisdiction
The Instant Matter concerns Claims by
Coulter, a Citizen of New Jersey, against Citizens of
Pennsylvania who own the property next-door to
Coulter's family-home in Pennsylvania. Thus,
jurisdiction in the District Court is pursuant to 28
U.S. Code § 1332 - Diversity of citizenship :
"28 U.S. Code § 1332 - Diversity of citizenship;
amount in controversy; costs
The district courts shall have original
(a)
jurisdiction of all civil actions where the
matter in controversy exceeds the sum or
value of $75,000, exclusive of interest and
costs, and is between—
citizens of different States; ..."
(1)
(g)

Pertinent Factual History
The matter under consideration at this time,
involves a Civil Case filed by Coulter, a Citizen of
New Jersey, who is attempting to recover for
damages to Coulter's property which were caused by
trees which were located on property owned by Gerri
and Joseph Paulisick. When large limbs from
Paulisicks' trees'have fallen, they damaged Coulter's
family-home, as the result of Paulisicks negligence
and even utter disregard for the safety and property
of others. (9a.)
4.

Despite the fact that Paulisicks were aware
that Coulter had resided in the home for a lengthy
period (even for a short time after the death of the
Coulter's mother), Paulisicks have continued to only
contact Coulter's brother any time that their trees
cause damage to the house. Because of Paulisicks
decision to notify Coulter's brother, while refusing to
even leave a message on the machine which Coulter
had continued to maintain inside the house,
Paulisicks have (perhaps unknowingly at first),
actively assisted in the brother's crimes against
Coulter.
Even after learning (years prior to the filing of
the Civil Complaint) that Coulter's brother had
already sold his share to Coulter, Paulisicks have
continued to assist Coulter's brother, (by informing
the brother of Coulter's comings and goings) in the
brother's repeated thefts and vandalism of the home
over which the brother no longer has any rights.
And, even more egregiously, since the filing of the
Complaint, Paulisicks have continued to act in
complete disregard for both Coulter's property and
Coulter's Due Process Rights - as they have even
chosen to submit dubious filings, when they were
aware that Coulter was traveling abroad, and then
completely "failed" to even serve Coulter with that
filing (in an apparent attempt at assuring that even
if Coulter had her mail forwarded to her during her
trip), Coulter would still be left "in the dark!
Procedural History
On March 6, 2015, Coulter first filed a matter
in the federal courts, on the basis of Diversity
Jurisdiction (Coulter v. Lindsay). That case was
Dismissed With Prejudice on March 6,
5.

2015, by District Judge Cathy Bissoon, as a Sanction.
(22a.) In January 2016, the Third Circuit upheld
Judge Bissoon's Order of March 6, 2015, Dismissing
that case With Prejudice. Both courts were aware
that Jurisdiction was exclusively on the basis of
Diversity (and that all of the Lindsay Defendants
were domiciled in Pennsylvania). (21a.)
Approximately six (6) months, Coulter filed
the Instant Matter in the federal courts. And, a
week later, Coulter filed another case (Coulter v.
Coulter). Both of these later cases were also filed on
the basis of Diversity Jurisdiction alone.
The Instant Matter was assigned to District
Judge Joy Flowers Conti, on July 20, 2015. On
January 11, 2016, just a few days before the Third
Circuit upheld the decision in the earlier Diversity
Case (which was Dismissed With Prejudice as a
Sanction), the Instant Matter was Stayed - ostensibly
to allow for another case involving Coulter to
completely settle the question of the ownership of
Coulter's property. (10a.)
On July 12, 2018, while Coulter was out of the
country (a fact which Paulisicks were well aware of),
Paulisicks' Counsel chose to secretly file Motions
setting up their attempt to have Judge Conti dismiss
the matter before Coulter would return from abroad.
Indeed, Paulisicks filing itself proves that they made
no attempt to provide service on Coulter, as it never
even attempts to claim that service was made! So, it
was only when the court mailed an Order for
Coulter's response to Paulisick's filing, that Coulter
was first notified of the secret filing.
It is also worth noting that, in the summer of
2018, the appeal of Coulter's Civil Action against
Judge Conti,' Judge Bissoon and a number of
6.

judges from the Third Circuit was still pending in
this court. (16*497) Yet, Judge Conti chose to
continue to rule in this case!
Because of the still pending Civil Case against
Judge Conti, as well as Judge Conti's refusal to hold
Defendants' Counsel responsible for their clearly
"improper" filings (without service of those filings on
Coulter), Coulter filed Motion for Recusal on October
3, 2018.(l4a.) In that Motion for Recusal, Coulter
specifically raised Judge Conti's prior concealment of
criminal actions by one of the District Court's
Brethren (Judge Bissoon) (25a. - 29a.) along with
alerting Defendants' Counsel of their obligation to
report the crimes of the judge (pursuant to Rules of
Professional Conduct for Attorneys)! (19a.)
Facts Requiring Recusal of District Judge Conti
Judge Bissoon and Judge Conti first became
co-conspirators for the clear purpose of victimizing
Coulter, earlier in 2015, about three (3) months
before Coulter filed the Instant Matter. At that time,
Coulter erroneously sent an Official Complaint of
Judicial Misconduct or Disability (25a. - 29a.) to
Judge Conti as the Chief Judge of the District
(instead of sending it to the Chief Judge of the
Circuit as procedures require). At that time, Judge
Conti became aware of some of Judge Bissoon's prior
crimes - specifically the fact that Judge Bissoon had
chosen to violate Criminal Statutes, as well as
Coulter's Rights, by permitting Sealed documents
from the state court to be released by Defendants'
Counsel - and then refusing to re-seal those
criminally released Sealed Records! Indeed, as
explained in the Formal Complaint of Misconduct,
repeatedly Judge Bissoon chose to illegally release
7.

sealed Adoption Records involving Coulter. (27a.)
However, when the district's Chief Judge (Judge
Conti), received the erroneously sent "Official
Complaint of Judicial Misconduct or Disability",
Judge Conti chose to conceal the Complaint rather
than forwarding it to the Chief Judge of the Third
Circuit - and thus Judge Conti chose to join into a
conspiracy with Judge Bissoon, actively participating
in the Violation of Coulter's Rights to Privacy (with
those officially Sealed State Court Records).
So, perhaps it should have been expected that
Judge Conti would have acted in such a blatantly
biased manner when, despite the pending Motion for
Recusal, (which had been pending for nearly two (2)
full months), Judge Conti chose to ignore Coulter's
Motion, in order to "allow" Judge Conti to Dismiss
Coulter's case on November 30, 2018! •
"... Before the court are a motion for recusal...
a motion for sanctions, special relief, and a
change of venue (ECF No. 22), filed by ...
plaintiff... Also pending is a motion to dismiss
f !
and strike' this civil action filed by the
defendants ..."
"... Coulter claims to have been a resident of
New Jersey 'since 2014', and alleges that she
'pays taxes as a resident of New Jersey, carries
Health Insurance which limits payments to
New Jersey-based providers, [and is licensed
to drive in New Jersey.' (ECF No. 9^1 1'2_.
Coulter's mailing address listed on the face of
the amended complaint" (a Post Office Box
>
address), "is located in Philadelphia,
Pennsylvania, and she admits that has been
her principal mailing address since 2011.
8.

8.

On July 27, 2015, seven days after filing her
original complaint in" (the Instant Matter),
"Coulter filed a second suit in the Western
District of Pennsylvania, ..., this time against
her brother, ... The court" (Judge Bissoon)
"issued an order for Coulter to show cause why
jurisdiction was proper, ... ( Civil Case 15-967,
ECF No. 2) Coulter filed a response, attaching
numerous documents (Civil Case 15-967, ECF
No. 2) After review of these materials"
District Judge Bissoon "... found that Coulter
did not produce a preponderance of evidence
sufficient to meet the burden of proof and
overcome the presumption of her Pennsylvania
domicile ... Coulter appealed to the Third
Circuit Court of Appeals, which affirmed"
Judge Bissoon's determination in that
unrelated case. "The court of appeals held
that a motion for recusal filed by Coulter
against" Judge Bissoon " was rendered moot
after the court concluded that it lacked
jurisdiction." (13a. - 14a.)
It is entirely inconceivable that Judge Conti was
unaware of the March 2015 Order in Lindsay, as the
listing of cases filed by Coulter (as found on
pacer.gov) has Lindsay in the line immediately above
the Instant Matter. So, it is abundantly clear that
the November 2018 Order by Judge Conti was the
decision bv an extremely biased jurist and further
that it was both knowingly and improperly based
exclusively on a subsequent (and bogus)
"determination" of Coulter's domicile produced
9.

by Judge Bissoon (in a matter filed after the filing of
the Instant Matter).
It is also obvious that Judge Conti chose to
overlook the March 2015 Order, because to do
otherwise would have required that Judge Conti
must "determine" that Coulter had ceased being
domiciled in New Jersey and became a Pennsylvania
Citizen ■ between March 6, 2015 (when Judge
Bissoon and the Third Circuit must have decided
that Coulter was actually domiciled in New Jersey)
and July 20, 2015 (when the Instant Matter was
filed). And, no change in circumstances existed upon
which this change of Citizenship could be based. It is
also noteworthy that no set of circumstances was
provided by either Judge Bissoon or any jurist from
the Third Circuit, which could have possibly resulted
in this change of domicile for Coulter, either! (21a.)
Further proof of the assertion that Coulter's
domicile was "conveniently" determined rather than
it being made on the actual circumstances, is the fact
that neither Judge Conti nor the Third Circuit En
Banc, have ever described any basis for their
determination that Judge Conti appropriately used
the determination in a subsequently filed matter, in
order to determine if the federal court possessed
Subject Matter Jurisdiction on the basis of Diversity
Jurisdiction in this case - in direct conflict with
decisions in every other circuit!

M

Argument
On March 6, 2015, in Coulter v. Lindsay,
Judge Cathy Bissoon wrote an Order Dismissing the
case, With Prejudice, (22a.) based on an erroneous
determination that the case violated an Order from
10.

December 2012, by Judge Bissoon. That 2012 Order
restricted Coulter's filing of cases in the federal
courts with respect to two (2) specific origins which
the claims cannot arise from * and ordered the Clerk
of the district court to assign any case filed by
Coulter exclusively to Judge Bissoon! While the
Complaint did not involve the specific issues which
Judge Bissoon had restricted, the Third Circuit still
affirmed the dismissal with prejudice on January 13,
2016.
What is important to note from the improper
dismissal of the Complaint in Lindsay though, is the
fact that both the District Court and the Third
Circuit En Banc must have determined, prior to
ruling in Lindsay, that they possessed SubjectMatter Jurisdiction! Case Law in every Circuit
clearly requires that every judge in the district
courts as well as those jurists in the circuit courts,
must assure that the federal courts possess
jurisdiction, prior to taking any further action in a
case before them. As explained in Grupo Dataflux v.
Atlas Global Group. LP. 541 U.S. 567, 124 S. Ct.
1920. 158 L: Ed. 2d 866 - Supreme Court 2004.
citing United States v. Southern California Edison ’ <
Co:. 300 F. Supp. 2d 964. 972 (ED Cal. 2004) :
"district Courts have an 'independent
obligation to address [subject matter
jurisdiction] sua spontd "
Similarly, Case Law in every circuit (including
the Third Circuit), make it clear that the Circuit
Courts are also required to assure that the federal
courts possess Subject-Matter Jurisdiction —
regardless of the stage in the proceeding, as
11.

described the Third Circuit case Zambelli Fireworks
Mfg. Co.. Inc- v. Wood. 592 F. 3d 412 (2010) :
"Under this Court's continuing obligation to
assess its subject matter jurisdiction, we can
dismiss a suit sua sponte for lack of subject
matter jurisdiction at any stage of the
proceeding. Carlsbersr Res. Cory. 554 F. 2d at
1256."
Therefore, that fact that Coulter was, in March 2012,
not a Citizen of Pennsylvania was decided as an
adjudicated "fact", as the result of the decision by the
Third Circuit ruling En Banc, on January 13, 2016.
And, it is important to note, therefore, that the
Third Circuit's affirmation of the Dismissal With
Prejudice in Lindsay was obviously also "available"
for Judge Conti's use in determining Coulter's
citizenship. Simply put, in Lindsay. it must have
been determined that Coulter was not a Citizen of
Pennsylvania in March 2015. Therefore, Judge
Conti's decision to accept a determination of domicile
(from the case heard by Judge Bissoon) in a matter
filed subsequent to the filing of the Instant Matter,
clearly is in direct conflict with decisions in every
other circuit, all of which have ruled that the state of
the Parties' Domicile(s) on the date of filing alone, is
all that must be reviewed and utilized in order to
determine if the federal courts possess SubjectMatter Jurisdiction!
Case Law from every other Circuit, makes it
clear that Diversity Jurisdiction in the federal courts,
is determined only on the basis of the Parties'
Citizenship as of the date of filing of the Civil
Complaint, as explained in America's Best Inns v.
12.

Best Inns of Abilene. L.P.. 980 F. 2d 1072, 7th Circ.
(1992) :
"...At oral argument the court reminded the
parties of the need to establish complete
diversity of citizenship. In particular, the
PA11V

i Af*i

enlarge the record to show the citizenship of
every partner as of the date the complaint was
filed. See U.S.C. § 1653. ..."
See also Freeman v. Northwest Acceptance Corn. 754
F. 2d 553 - 5th Circ. 1985 : "[2] The citizenship of the
parties on the date the complaint was filed
determines the existence of diversity jurisdiction..."
and Rowland v. Patterson. 852 F. 2d 108 4th Circ.
1998. citing Topp v. ComnAir Inc.,814 F. 2d 830, 832.
n.l. (Ist Circ. 1987) :"... except in cases removed
from state court, diversity is determined with
reference to the date on which a complaint is filed in
federal court.” and Gilbert v. David. 235 US 561, 35
S. Ct. 164. 59 L.Ed. 360 - Supreme Court 1915 :"...
If the plaintiff was domiciled in the State of
Michigan when the suit was begun ..."
Despite apparently almost universal
acceptance of the date of filing as the date for which
Diversity Jurisdiction is calculated by every other
circuit, the third circuit has decided that it can
ignore the ruling by this court in Gilbert v. David, as
Judge Conti, and indeed the Third Circuit ruling En
Banc did when those jurists decided that Coulter's
domicile at a later date (albeit only a week later),
shall be considered to have formed the basis for
determining whether Diversity Jurisdiction exists or
not - rather than requiring jurists in any portion of

the
13.

third circuit to be required to consider the
"inconvenient" question of the Parties' (specifically
Coulter's in this case) citizenship on the date of
filing!
Conclusion
It is readily apparent from the actions by
District Judge Joy Flowers Conti as well as the Panel
and En Banc Decisions of the Third Circuit, that for
jurists within all levels of the Third Circuit, their
actions have "so far departed from the accepted and
usual course of judicial proceedings, or sanctioned
such a departure by a lower court, as to call for an
exercise of this Court’s supervisory power".
Further, it appears obvious that Judge Conti
chose to dismiss the case, in this manner, as a "thank
you" gift to Defendants' Counsel - who "graciously"
chose not to report the crimes by Judge Bissoon
which were presented in Coulter's Motion for Recusal
"... Counsel for Defendants is now obligated to report
the crimes by both District Judge Cathy Bissoon, and
This Court ..."(19a.) The fact that this type of silent
communication, through the issuance of clearly
bogus decisions by judges and attorneys who
consciously "risk" their professional future on their
firm belief that the "secret handshake" will always be
respected by absolutely every members of the "Just
Us System" - is a scourge the likes of which has not
been seen before in this nation!
Each member of the judiciary must accept
responsibility for the incredible level of corruption
which is currently openly displayed by every judge,
lawyer or member of law enforcement. But, the
responsibility for this situation ultimately must rest
(i)

14.

on the bench of each member of the Supreme Court
(the Justices, as well as their Clerks) — as without
the laissez-faire attitude of this, the most honored
court in the world, such an outrageous level of
corruption would be impossible! All it would take is
one honest person! What will it take for that one
lone voice from a member of the "Just Us System" to
be finally heard over the din of the collapse of our
country and indeed our civilization?!
RespectfullyJSubmitted
JoAnUoulter, Petitioner

15.

